HHS/OIG, Audit -"Nationwide Audit of State and Local Government Efforts to Record and Monitor Subrecipients'
Use of Bioterrorism Hospital Preparedness Program Funds,"(A-05-04-00028)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Nationwide Audit of State and Local Government Efforts to Record and Monitor Subrecipients' Use of Bioterrorism
Hospital Preparedness Program Funds," (A-05-04-00028)
August 26, 2004
Complete
Text of Report is available in PDF format (457 kb). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
Since April 1, 2002 the Health Resources and Services Administration (HRSA) has awarded $623 million to 59 State, territorial,
and selected municipal offices of public health to upgrade the preparedness of the Nation's hospitals and collaborating
entities to respond to bioterrorism.  We reviewed bioterrorism grant programs in 14 States and 4 major metropolitan
areas.  We found that improvements are needed to ensure that bioterrorism program funds are efficiently and effectively
utilized.  We recommended that HRSA:  (1) identify awardees not meeting budget restrictions and ensure that all
awardees account for funds in accordance with their cooperative agreements, (2) provide guidance to awardees on monitoring
subrecipient expenditures and measuring subrecipient performance, including emphasizing the need for awardees to make site
visits to directly review subrecipients' expenditures and assess subrecipients' progress in improving bioterrorism preparedness,
and (3) identify the reason for large unobligated balances and assist the awardees in overcoming barriers to a more timely
use of funds.  HRSA officials concurred with our recommendations.